<html>
<title> - ELEMENTARY AND SECONDARY EDUCATION IN NEVADA</title>
<body><pre>[Senate Hearing 107-815]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-815
 
              ELEMENTARY AND SECONDARY EDUCATION IN NEVADA
=======================================================================






                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                      APRIL 5, 2002--LAS VEGAS, NV

                               __________

         Printed for the use of the Committee on Appropriations











 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______


                           U.S. GOVERNMENT PRINTING OFFICE
80-081                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
ERNEST F. HOLLINGS, South Carolina   ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HARRY REID, Nevada                   JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        MIKE DeWINE, Ohio
                           Professional Staff
                              Ellen Murray
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                              Erik Fatemi
                       Bettilou Taylor (Minority)
                        Mary Dietrich (Minority)
                    Sudip Shrikant Parikh (Minority)
                       Candice Rogers (Minority)

                         Administrative Support
                             Carole Geagley



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Harry Reid..........................     1
Statement of Carlos Garcia, superintendent of schools, Clark 
  County School District, Nevada.................................     4
    Prepared statement...........................................     7
Statement of Tammie Carter.......................................     9
    Prepared statement...........................................    11
Statement of Karen Taycher, executive director, Nevada Parents 
  Encouraging Parents............................................    12
    Prepared statement...........................................    14
Statement of Albert Maldonado....................................    16
    Prepared statement...........................................    17
Statement of Jennifer Parmeley...................................    18
    Prepared statement...........................................    20
Statement of Paula Pressley......................................    20
    Prepared statement...........................................    21
Statement of Terry Lizotte, director, Grants Development 
  Administration, Clark County School District...................    22
Statement of Chopin Kiang, Nevada Department of Education........    23
Statement of Marsha Washington, Nevada State Board of Education..    25
Statement of Isaac Barron, teacher, Rancho High School, Clark 
  County School District.........................................    25
Statement of Mary Greene, president, National Association for the 
  Gifted and Talented............................................    26
Statement of Fernando Romero.....................................    28
Statement of Linda Rivera........................................    29
Statement of Denise Hedrick, interim executive director, 
  Education Collaborative of Washoe County.......................    29
Statement of Kenneth Lange, executive director, Nevada State 
  Education Association..........................................    30
Statement of Loretta Evenson, Nevada State Parent Teachers 
  Association....................................................    30
Statement of Terry Hickman, president, Nevada State Education 
  Associa- 
  tion...........................................................    31















              ELEMENTARY AND SECONDARY EDUCATION IN NEVADA

                              ----------                              


                         FRIDAY, APRIL 5, 2002

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                     Las Vegas, NV.
    The subcommittee met at 10 a.m., at Western High School, 
4601 West Bonanza Road, Las Vegas, NV, Hon. Harry Reid 
presiding.
    Present: Senator Reid.

                OPENING STATEMENT OF SENATOR HARRY REID

    Senator Reid. This U.S. Senate Appropriations Subcommittee 
is called to order. I would first like to recognize Jerry Bath 
and Sarah Brown who will be the sign language translators. We 
also have Margarita Vandermere, who is going to be the Spanish 
to English interpreter.
    We are fortunate to have with us today three members, I 
hope that's all I saw, if I missed anyone, I'm sorry, three 
members of Clark County School Board who are here with us, 
Sheila Moulton, Mary Beth Scow and Susan Berger Welman. We also 
are fortunate to have with us today Senator Harkin's chief of 
staff on the Appropriations Subcommittee. This hearing is being 
held under his auspices of the subcommittee as the ranking 
member.
    We are fortunate to have with us Ellen Murray who is, as 
I've indicated, Senator Harkin's chief of staff. We also have 
with us Carolyn Slutsker, who is my personal staff 
representative on this subcommittee.
    We will begin this program, I do this with pleasure, and I 
very much appreciate the Western High School Junior ROTC being 
here. Would everyone please stand.
    [Whereupon, the U.S. Flag was presented and the Pledge of 
Allegiance was said.]
    Senator Reid. Good morning again. This hearing is being 
held under the auspices of Senator Harkin's subcommittee, and I 
appreciate everyone being here for this very important Senate 
Appropriations field hearing.
    One of the things we try to do with the Senate and, 
focusing with the Senate, as we travel to our States, we try to 
gather information to take back to Washington. We have here, of 
course, an official court reporter of the Senate. Every word 
that's said here today will be taken down and transcribed and 
submitted to the Senate.
    There are things, of course, that I will convey orally to 
Members of the Senate. We are now entering into the 
appropriations process stage of our Congress. We have already 
held a number of hearings, and they will get hot and heavy very 
soon. I'm chairman of one of the subcommittees. We have already 
had a number of hearings in that regard. This is a committee 
with wide-ranging jurisdiction. This committee is responsible 
for appropriating approximately $120 billion every year of 
taxpayer money.
    It goes without saying what we do here is important, and 
takes a lot of your dollars, so we want to make sure that we 
try to do the right thing.
    One of the most important functions of this particular 
subcommittee of which I am a member, and that subcommittee is 
titled Labor, Health and Human Services and Education 
Subcommittee, is a funding of education programs, wide-ranging 
programs from Early Head Start to programs for colleges. This 
hearing today will focus on elementary and secondary education 
perhaps and their significance to Nevada.
    The people you will hear from today are experts on 
education, students, parents, and other individuals who are on 
the front lines of education in Nevada.
    All of these witnesses can attest to the critical role that 
the Federal Government plays in helping Nevada. I'm pleased 
that these witnesses, many of whom have never testified before 
anyone, let alone a Senate hearing, some have not spoken in a 
public setting like this, have agreed to share their 
experiences with us.
    The hearing will be divided into two parts. As I have 
indicated, all of your statements are on the record, taken down 
by our court reporter. First we will hear from our panel of 
witnesses. They are assembled here with me today. Once they 
have completed their testimony, we will open the room for 
questions, comments or suggestions. The length of the testimony 
you hear from us will be in varying fashion, but the length of 
the testimony has nothing to do with the importance of the 
testimony.
    After we have completed this testimony we are going to open 
the room for questions, comments or suggestions. That's why we 
have those two microphones. Once a person wishing to speak has 
been recognized, speak into the microphone and begin by stating 
your name. This is for purposes of the court reporting. As I've 
said before, everything will be taken down.
    Make sure that you limit your comments, your questions, or 
your statements to just a couple minutes. I am really used to 
people talking for long periods of time, serving in the Senate. 
So we would like to keep this as brief as possible and still 
give people opportunity to speak.
    Before I introduce our first witness, I would like to say a 
few things myself. Our Nation was founded on the ideal that no 
matter who you are, no matter where you are, no matter where 
you are going, no matter how much money your parents have, no 
matter your race, religion or your ethnic background, if you're 
willing to study, work hard, you can be a success. This is the 
American dream. This is one of the things that makes our Nation 
so great.
    I was born 60 miles from here and I recently built a home 
there to replace my mobile home in Searchlight. And as I look 
back on my public education, which I'm very proud of, it was I 
am sure, difficult for the teachers.
    I started there in first grade. We had two teachers, two-
room schoolhouse, still there, even though the kids have moved 
out to another school, and I was looking forward to getting 
into the fifth grade with great anticipation.
    But when I got to fifth grade there weren't enough kids for 
two teachers, so from grade five on, one teacher named Mrs. 
Pickard taught all eight grades. As I look back on Mrs. 
Pickard, I do it with such reverence; she was so good. I cannot 
remember a single thing she taught me, but I do know that Ms. 
Pickard instilled in me a desire to learn, to read, and to 
appreciate school.
    So I believe that someone like me, I tell kids at 
elementary and secondary school and colleges all the time that 
if I can make it, anybody can from an education perspective. So 
I think each of you here should understand this is a great 
country we live in.
    Today the American dream, though, I believe is being 
threatened by a lot of reasons for a lot of reasons: One is the 
high dropout rate we have in school, overcrowding in 
classrooms, teacher shortages, and inadequate State funding.
    While these problems are occurring across the Nation, they 
are particularly severe in Nevada because of the growth we 
have. We lead the country, as I understand it, in dropout 
rates. We no longer lead the country in teenage pregnancy, but 
we are close. One out of every 10 high school seniors in Nevada 
drop out of school. In Clark County, two-thirds of our high 
schools have been told to reduce their class sizes or risk 
accreditation status.
    The State of Nevada underfunds education by almost $1,000 
per student per year. As a result, students do not have the 
school supplies they need and many other inadequacies.
    This past fall Congress passed and the President signed a 
law called ``No Child Left Behind.'' In my opinion this is a 
valueless name for a legislation if it does not have resources 
to back it up. This new law sets high standards for all 
teachers. It also helps communities to recruit highly trained 
teachers, hopefully, if they need to improve, and face 
consequences if they fail.
    Parents with bilingual children who need extra help, under 
this legislation are supposed to get help. Communities who 
require help for disadvantaged students are supposed to get 
help.
    But the problem is with this legislation, as with many 
things we do in Washington, we authorize, which sounds good, 
and then we appropriate. And appropriations are always behind 
what we authorize. I am terribly disappointed. This law does 
not fully fund the Individuals With Disabilities Education Act, 
or IDEA, as we call it. This would have meant as much as $706 
million more for Nevada schools.
    We have made a commitment more than 25 years ago to provide 
40 percent of the cost for special education and we have failed 
miserably. The Senate budget committee recently took an 
important step in the right direction when it included full 
funding for IDEA for fiscal year 2003. We will take this up 2 
weeks after we get back starting next week.
    While the No Child Left Behind Act provides a blueprint for 
education reform, real reform cannot occur without real 
resources, which brings me to the purpose of today's hearing. 
Last year the Congress and President tried to show how serious 
they are by passing the No Child Left Behind Act. So we are 
going to expect battles with education funding, because later 
this year they are going to see how serious we are about making 
these funding decisions.
    Just a month after signing the No Child Left Behind Act 
into law, President Bush issued his proposed budget for fiscal 
year 2003, which is the one we are going to be working on now. 
In this budget he is proposing cuts of almost $100 million in 
the No Child Left Behind Act. This means that the communities 
like Clark County would have insufficient resources to 
implement reforms in this bill.
    The President also proposed freezing or cutting programs 
that are vital to the success of Nevada's children. For 
example, the President has proposed level funding for teacher 
quality bilingual education, and the budget provides 
insufficient resources to modernize schools and address 
overcrowding.
    I know our Nation's at war. Many believe it's time to 
tighten our belt and incur budget cuts in our education 
programs. I can personally think of no better way to invest in 
our national security than to dedicate precious resources to 
the future of our Nation's children. Having a secure Nation is 
more than putting uniforms on people and building things that 
explode.
    One way to invest in our national security is to invest in 
education. So I'm going to return to Washington I hope armed 
with more information than I now have to ensure we work to 
provide resources to guarantee that truly no child is left 
behind.
STATEMENT OF CARLOS GARCIA, SUPERINTENDENT OF SCHOOLS, 
            CLARK COUNTY SCHOOL DISTRICT, NEVADA
    Senator Reid. I am going to ask Carlos Garcia now to speak. 
He has a tremendously important job. He's someone that doesn't 
receive the notoriety that others of us do, but his job is just 
as important as any other job in the State of Nevada. He has 
responsibility for about 240,000 children.
    I see back here in the audience a little 4-year-old boy. I 
talked to him when I came in. Bashful little kid, handsome 
little boy. This is what this is all about, making sure that 
this little boy is properly educated.
    Carlos, that's what your job is all about. I admire and 
respect the work that you're doing with such inadequate 
resources, and there isn't a time that I see one of these 
little children in Nevada and in my mind's eye I see my 
grandchildren who are being educated here in Nevada, that I 
don't worry about the resources that you have to help them get 
a good education.
    Carlos Garcia.
    Mr. Garcia. Thank you, Senator.
    Obviously when you're in the fastest growing school 
district in the country where we can grow anywhere between 
12,000 and 15,000 students a year, we have issues that we have 
to deal with all the time.
    We are currently the 6th largest school district in the 
Nation, and so some of the issues that although we are very, 
very happy with the new legislation in terms of the spirit that 
it's trying to capture that all students can and will succeed 
and the accountability, that all of us are responsible for the 
education of our children. And in our public schools we are 
very excited about that. We believe in the spirit of it.
    But as the Senator mentioned, our biggest concerns are 
whether or not we are going to have the resources to truly 
implement and assure that no child will get left behind. Not 
only are we $1,000 below the national average on per pupil 
expenditures here in Clark County, we are actually several 
hundred dollars below the average of the State per pupil 
expenditure. So when they do the average, we are actually below 
that average, so it really puts us in a bind in trying to deal 
with the growth issues here.
    There are a couple issues I want to highlight when it comes 
to the No Child Left Behind. The legislation requires massive 
data gathering, and data gathering that no one ever dreamed of. 
We are going to be testing in every single grade level from 3rd 
grade to 8th grade. So as a result how are we going to collect 
and make sure that data becomes user friendly and user friendly 
for the teacher in the classroom, and that we can do something 
with that data so that in the future we not only record third 
grade scores, but actually compare that to how kids, those same 
3rd graders do in 4th grade, 5th grade, and as they move up in 
the system.
    That's going to require a huge system, and my biggest fear 
right now is that school districts are not ready in any way to 
deal with that much data collecting and storing the data. Our 
infrastructure alone in Clark County as it currently stands, we 
are having to do a lot of those things manually because our 
systems are so obsolete.
    In order to gear up our systems to be able to truly do an 
effective job with the data, we calculate that we would need 
about a $15 million investment in our infrastructure so that 
all the systems we have are connected and talk to one another 
and we actually utilize that data every day in the classroom. 
That's the big concern of ours.
    We also are a little bit concerned with the legislation 
that still exists on holding States harmless. I always hear 
that. I always say well, if somebody else is held harmless, 
that means somebody else is getting harmed. And the people 
getting harmed are people like Nevada that are the fastest 
growing places in the country and have some of the poorest kids 
coming in the Southwest, and when we don't get our fair share 
of the pie because the States in the east want to maintain 
their level to be held harmless, we are among the fastest 
growing places, and yet the money is not following the children 
at that same pace. That's an extreme circumstance here and 
throughout the Southwest.
    Special education, the Senator mentioned, obviously when 
you're a big school district like ours, we take the hit of 
about $94 million, an encroachment into the general fund, of 
trying above and beyond what we provide for our regular 
students. The legislation, when it was passed, the IDEA, as the 
Senator knows, there was supposed to be a level of, I believe, 
40 percent funding, and yet we have never even come close to 
that.
    That keeps--just kills the school districts throughout the 
country because we are--if there is a law passed, then we 
believe that we are not having an unfunded mandate. Those are 
the things that really take a part of our meager budget and 
make it even tougher, and then it pits parents against parents, 
regular ed parents with special ed parents, and that should 
never be happening, because truly if we don't want any children 
left behind, then all of these children, regardless of 
disabilities, are our children, and we should fund 
appropriately to give them the programs that they so deserve.
    Another big issue is the bilingual education issue. The 
fastest growing segment of our population throughout the 
southwest and particularly here in Clark County are our limited 
English proficient students.
    Just think, we are doubling every 10 years with that 
population. We estimate that it's going to get bigger and 
faster, that growth. Currently we are serving about 42,000 
limited English proficient students in the Clark County School 
District, and we don't get additional funding in order to meet 
those needs.
    And add on top of that we estimate that in the next 3 to 4 
years we will go from 42,000 limited English proficient 
students to almost 90,000 students. And yet how is that 
classroom, how is that teacher supposed to be able to serve 
that population?
    It's unfair to those children whose parents made the 
decision to come here. We should never penalize students 
because of whatever act, whether their parents are here 
illegally or whatever. As the Senator knows, Horace Mann said 
it best, the founder of public education in this country, he 
said that public education served everyone, regardless of 
gender, race, religion or socioeconomic factors.
    If that's truly the case, then we need to step up and start 
funding bilingual education and immigrant education, because 
the States that are affected the most by those issues are the 
States that get the least amount of money to address those 
types of issues.
    In the Clark County School District, if you went into the 
average classroom, the average classroom will have between 
three to five limited English proficient students in every 
classroom in our elementary schools. And yet our teachers, who 
are trying to deal with overcrowded classrooms, where actually 
Nevada ranks--there is only five States that have larger class 
sizes than the State of Nevada. And yet how are we supposed to 
deal with the issues when we have so many limited English 
proficient students?
    I could go on for days because these are topics of a lot of 
passion. We have a big concern with the H.R. 1, No Child Left 
Behind, in terms of the time line. Although we agree on taking 
on that challenge and we are ready to meet that challenge, we 
are concerned that the time lines that are supposed to be 
implemented by September 1, that we--how would we be able to 
meet those time lines when even the regulations haven't been 
written in terms of how we are supposed to implement some of 
these things.
    And September 1 for all of us in the school business is 
just around the corner, and if we are going to meet those 
challenges, we urge that those guidelines, the regulations, 
come immediately so that we will have some time. And I really 
worry that some time doesn't mean just 2 or 3 months. When 
you're a huge institution like ours, we usually need at least a 
good year to prepare and get our systems in place to address 
those things.
    Last but not least, I want to address that Clark County is 
working diligently with UNLV, the State Department of Education 
in Washoe County, because we think that all these programs like 
No Child Left Behind are great programs to have, great laws. 
But what we really need in public education is we need centers 
developed that evaluate programs and determine what it is that 
truly works in education.
    Why keep investing millions and millions and billions of 
dollars every year since the inception of Title I and Chapter 
1, when the money just keeps going and our results aren't 
changing significantly.
    What we need is centers to be developed, and we are 
encouraging the Senator and everyone to please fund places like 
a resource evaluation and assessment center that can do the 
entire western States that can put together the top programs in 
the Nation, what is it that works in educating our students.
    If we are truly going to close the achievement gap between 
minorities, who incidentally are now the majority in the Clark 
County School District, that we are truly going to close that 
gap, we need the resources to study and evaluate what works.

                           PREPARED STATEMENT

    We can no longer continue to rely on vendors, publishers, 
to tell us and share with us their data. Their data, no offense 
to them, is a little skewed. What we want is we want to 
determine, using our own students, and make the determination 
whether or not things work.
    Please support us in developing such centers so that all 
our children will truly not get left behind.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Carlos A. Garcia
    On behalf of the 244,684 children of Clark County School District, 
Las Vegas, Nevada, I am pleased to present testimony to this committee. 
Our district is the fastest growing school district in the United 
States. It includes urban, outlying, and rural areas of the county. 
Within the district, we are divided into five geographic regions, with 
approximately 50,000 students per region.
    To house our students we have a building program unlike any in the 
United States. During the 2001-02 school year, Clark County School 
District has opened sixteen new schools. It is relevant to note that 
each month approximately 1,000 new students register for school in our 
district, many who speak little or no English.
    In presenting a brief overview of Clark County School District, I 
must tell you that the challenges we face on a daily basis are 
exacerbated by the need to cut over $84 million from our budget over 
the past two years. While the cuts have increased our creativity in 
providing program resources for our students and staff, the budget 
conditions have also inhibited our ability to help our students achieve 
their full potential.
    In our district, at-risk schools did not happen overnight, and they 
will not go away overnight. Resolving the issues that plague our at-
risk schools will take time and a constant improvement effort by staff, 
students, parents and community in supplying the many resources needed 
to remove the stigma of the ``at-risk'' label.
    While the challenges are great, the philosophy of this remarkable 
district mirrors the value of the legislation, H.R. 1, The Leave No 
Child Behind Act, 2002. Our district appreciates the increased funding 
provided and the focus on the neediest of America's children. We also 
are thankful for the flexibility provided in the legislation.
    While our district is ready to meet the challenge, I believe that 
to fully implement this legislation we face some concerns regarding the 
impact of this legislation. Specifically, The Leave No Child Behind 
Act, 2002 requires a great deal of reporting. Our district does not 
have the technological capability to provide the types of reporting 
required. At the present time, our data is kept in many pockets of 
technology and the reporting requirement would be largely labor 
intensive. We ask that you consider allowing the funding resources to 
be used for the purchase of the infrastructure needed and flexible 
implementation timelines for districts to be equipped to supply the 
type of useful and relevant data required
    In addition, I ask that you review the impact on funding for 
students with disabilities. The same formula is used for students with 
mild disabilities, as well as the severely disabled. Clark County 
School District received $18,000,000 in federal funds to support 
students with disabilities and yet, the encroachment on the CCSD 
general fund for 2001 is approximately $94,000,000.
    The following represents expenses above the basic per pupil support 
now provided:

------------------------------------------------------------------------
                                                          ..............
A Resource Room student requires:---------------------------------------
    Cost:
        Teacher @ 1:22..................       52,000/22          $2,360
        Aide @ 1:22.....................          17,000             775
                                                         ---------------
          Total cost....................                           3,135
                                                         ===============
A student with severe disabilities:
    Cost:
        Teacher @ 1:8...................        52,000/8           6,500
        Aide............................        20,000/8           2,500
        Speech Therapist................       52,000/50           1,040
        OT/PT...........................       52,000/40           1,300
        APE.............................       52,000/40           1,300
        Assistive Technology............                           5,000
                                                         ---------------
          Total cost....................                          19,850
------------------------------------------------------------------------

    Autism: Autism is the fastest growing disability in the U.S. 
Research recommends 30 to 35 hours of engagement for preschool age 
children. The number of hours often dictates a partial home program at 
district expense. CCSD autistic students grew from 89 students to 879 
in five years.



------------------------------------------------------------------------

A preschool child with Autism:------------------------------------------
    Cost:
        Teacher @ 1:8...................        52,000/8          $6,500
        (2) Aide @ 1:8..................        40,000/8           5,000
        Speech @ 1:18...................       52,000/18           2,888
        OT/PT @ 1:20....................       52,000/20           2,600
        APE.............................          52,000           1,300
        LRE Assistant 1:1 (as needed)...          22,000          22,000
        Assistive Tech..................                           2,500
        In Home Program.................                          20,000
                                                         ---------------
          Total cost....................                          62,788
------------------------------------------------------------------------

    Full funding for special education is at the top of our wish list. 
If we cannot have that wish, then the second item would be to fully 
fund the support needed for our students with the most severe 
disabilities.
                                title i
    H.R. 1, The Leave No Child Behind Act, 2002, is very child focused. 
I must reiterate our appreciation of the amount of effort that went 
into this bill to provide for our students with the greatest needs. The 
district received $22 million in 2002, while serving approximately 
36,000 students in 40 schools. Next year we will receive $29 million 
and serve approximately 45,000 students in fifty-one schools.
    While the bill's focus on our children requires an immediate 
response, the January 8, 2002 expectation for implementation is not 
realistic. For example, the mandate is to hire new aides in Title I 
with two years of college or an associate's degree and/or pass a 
rigorous test. It is left to the district to find qualified applicants 
and to fund higher salaries to aides with an associate degree.
    Please consider that our large district will require additional 
funds to meet qualification standards due to the large number of 
employees needed. Paramount consideration must also be given to the 
scarcity of teachers nationwide, especially in critical areas of 
expertise.
    Furthermore, due to our current economic situation we ask that full 
funding be considered to purchase all testing materials so that all our 
children can be assessed annually. This is an expense that we are ill-
equipped to provide without great damage to all but the core subjects. 
We believe the mandate of HR1 is to provide our students with a full 
education, not partial instruction in limited subject matter.
                          bilingual education
    At the present time, we serve 67,026 Hispanic students and 
approximately 53,428 are receiving English Language Learning services. 
The program receives $250,000 a year for teacher training and $225,000 
for three years to implement a Dual Language Program.
    There is a tremendous need for additional funding to support ELL 
programs in our district.
    In summation, we believe HR1, The Leave No Child Behind Act, 2002 
is the building block for public education for the future. It provides 
direction, accountability and most of all, security for our children. 
We ask that the direction for this bill include realistic funding 
resources and a pragmatic timeline of implementation.
    Thank you for your time and consideration of the needs of students 
in Clark County School District.

    Senator Reid. We are fortunate to have with us today the 
person who represents the teachers in the State of Nevada, Ken 
Lange. Thanks for being here.
    We are now going to hear from Tammie Carter. Tammie is a 
parent who currently has a child enrolled in Title I 
prekindergarten program at Kermit Booker Elementary School. She 
was chosen to represent the parents and the students enrolled 
in the Title I pre-K program because she is active in the 
parent involvement component, and she's familiar with classroom 
procedures and learning activities in which children engage. 
She has firsthand knowledge of the benefits and growth that her 
child has experienced as a result of her enrollment in the 
program.
    Tammie.
STATEMENT OF TAMMIE CARTER
    Ms. Carter. Thank you, Senator Reid.
    I can honestly say that I'm proud to say that I was born, 
raised and educated in the State of Nevada. So it's not hard 
for me to speak on the importance of education. My personal 
best, I have a Master's in Rehabilitation Counseling from UNLV. 
So I know the importance of an education and I continually 
strive for educational arenas and I'm proud to be here today.
    However, education must have a starting point. The starting 
point should be best at home. It starts at home, daycares, and 
when that does not happen, unfortunately that falls on the 
burden of our Clark County School District.
    The Title 1 program is not a day care. I'm an active parent 
for Title 1 programs. Nor should they be considered a daycare 
program. Specifically your Pre-K programs, 3-year-old and 4-
year-old programs, they offer some things to children that they 
never receive at home if they don't get it before kindergarten, 
for a 2\1/2\ hour period.
    This exposure to education early will open doors later for 
those children, get them interested in education at an early 
age. Children can learn at 3-years-old, 2-years-old, 1-year-
old. They can learn.
    As a parent of a Title 1 attendee for Kermit R. Booker, I 
am very pleased with the template that has been given to my 
daughter. I sent my daughter to Kermit R. Booker with the 
concerns of a speech impediment that I saw.
    I was later spoken to by a speech therapist and she said 
she just has the knowledge, but not the basis to get that 
knowledge out. So she eased my concerns about the Title 1 
program of what it offers to my child. She just didn't have the 
knowledge to know what she wanted to say. So I thought she was 
stuttering. Come to find out she was just overactive in her 
mind.
    I was later offered psychological counseling for my 
daughter, not that anything was wrong, but she was shy and 
timid. She is an only child. So she is used to playing by 
herself. That psychological counseling helped me and my 
daughter to help her with her outgoing in classrooms and other 
students of similar background, ethnic background, religious 
background, and I'm happy for that.
    My initial concerns with the program were involvement, what 
did I need to do. It is mandatory that parents must spend at 
least 30 minutes in the classroom program with their child. The 
parents and the teachers work together, the parents go to their 
homes to see not only the home environment, but do the parents 
have the background, the basis, the foundation that they need 
in order to educate the child at home, also.
    It doesn't make sense to have a teacher send homework home 
and the parent not know what to do with it either. So they have 
the home visits. It's very needed. I have the background. Some 
don't.
    The Title 1 program is a stepping stone for children, 
economically, socially, to be exposed to reading, writing, 
social skills, communication, and self expression. With the 
mandatory involvement for parents, it also advises parents on 
what they also need to do in the community to help the school 
district educate these kids.
    The Title 1 program needs the funding. Some of these 
children would never receive some of the things that Title 1 
provides, books, crayons at home, scissors at home, glue at 
home.
    Unfortunately, I do understand that funding probably is not 
available for Pre-K to be in all school districts, all school 
areas. You have to live in a certain area for Title 1 to be 
provided for your child. But if we cut the funding for Title 1 
programs, we are also breaking our foundation for making these 
children highly educated individuals, breaking the foundation 
that you have laid for Pre-K going into kindergarten will not 
only hurt the State of Nevada, but Clark County as a school 
district itself.
    We need to start early. I am going to do everything I can 
as long as my child is in this program, and after she is out of 
this program, to see that this program continues, no matter 
what I need to do. I need to get involved as a community 
member, as a voter, to be a part of these programs.

                           PREPARED STATEMENT

    To the Board, and to all those that are present, this 
enriches our community, not only communities where children are 
in need, but other communities so that we can all interact 
together. There is no more biased background anymore. We need 
to all come together on one accord and educate all of our 
children in these programs.
    I thank you for your time.
    [The statement follows:]
                  Prepared Statement of Tammie Carter
    It's not hard to speak on the importance of education, my personal 
best is a Masters in Rehabilitation Counseling and I continually strive 
for educational arena's. However, education must have a starting point. 
That starting point should be home and daycare, seeing that it is not 
always possible the public school system bares this burden. My child is 
presently enrolled in the Title I Pre K program at Kermit R. Booker 
Elementary School.
    Title One Program is not day care, nor should it ever be considered 
as such. Title One Program (specifically Pre-K) offers the foundation 
that some children will not be exposed to. Exposure that will open 
doors later!
    As a parent of a Title One attendee, I am very pleased with the 
beginning template that has been offered to my daughter at Kermit R. 
Booker. I would only hope that Kindergarten programs will mirror this 
fine program and uphold such high standards of learning. My initial 
concerns was a noticeable stuttering problem, that turned out to be the 
active mind of a child not having the vocabulary to express herself. My 
daughter has been taught to slow down while I was taught not to rush 
the thought process. Speech therapy and Psychological counseling were 
offered to solve those issues.
    Title One is a stepping stone for children of all social and 
economic backgrounds to be exposed to reading, writing, social skills, 
communication and self expression. The manditory involvement from 
parents encompass the responsibilities to educate at home too!! 
Teachers and the Family Aides make monthly home visits bringing parents 
activities to do with the children, reinforcing what they have learned 
in school. Twice a month, parents attend meetings at school where guest 
speakers may be used to discuss parenting skills, enrichment 
activities, health issues, nutrition and job skills.
    Unfortunately funding probably doesn't allow Pre-K programs in all 
schools or 4 hour kindergarten classes but if funding can increase to 
provide such resources perhaps a decrease in Clark County's education 
woes will be evident. Finding qualified, dedicated employee's within 
the community is also a challenge that Nevada is facing, but if we 
break that foundation and cut back on programs for the children we 
decrease our chances for growth, not only as a community but as a 
state.

    Senator Reid. I want to say, if any of you have any 
questions of any of the witnesses here, save them because we 
are all going to remain here and respond to questions if you 
have any.
    Karen Taycher, co-founder of Nevada Parents Encouraging 
Parents, Nevada's Parent Training and Information Center, 
Parents with Children with Disabilities. She's served as 
director for the past decade.
    At its inception Nevada PEP, as it's called, which is a 
small parent support group in southern Nevada, has more than 
tripled since she started.
    Karen is inspired by her 18-year-old son who has multiple 
disabilities, and by her enthusiastic 14-year-old son.
    Ms. Taycher has been a strong advocate for family support 
and community collaboration from the time her eldest son was 
born.
    She's been honored for development of Challenger Baseball, 
nominated for Distinguished Woman of Southern Nevada, and 
nominated for Peacemaker of the Year from the Southern Nevada 
Mediators Association.
    Through her work with PEP and through her experience with 
her son, Karen understands firsthand the importance of funding 
the Individuals with Disabilities Education Act.
    Would you please proceed.
STATEMENT OF KAREN TAYCHER, EXECUTIVE DIRECTOR, NEVADA 
            PARENTS ENCOURAGING PARENTS
    Ms. Taycher. Thank you, Senator Reid. Thank you very much 
for inviting me to participate in this special field hearing.
    I'm honored to be given this opportunity to, on the record, 
support full funding of the Individuals with Disabilities 
Education Act and to show why that act and funding is so 
important.
    I'm the proud mother of two sons. My older son, Kenny, a 
senior in high school, has visual and hearing impairments, 
learning disabilities and neurological involvement. He is my 
inspiration for being here today, and for the work I do every 
day as the executive director of Nevada PEPS.
    Our parents center is partially funded by Part D 
appropriations. Nationally there are 105 parent centers like 
Nevada PEPS that support families and provide training and 
information.
    In Nevada there are over 42,000 children with disabilities, 
and it's estimated that it's 6.2 million children nationally. 
Parents Centers nationally serve over 2 million families and 
professionals.
    In Nevada our Parent Center reaches 6,500 families and 
3,800 professionals. We believe strongly that when families and 
dedicated educators work together and learn from each other, 
the opportunities for school, community, and home success 
dramatically increase with children with disability.
    The information that I have personally received from the 
Parents Center have encouraged me to advocate for my son that 
he receive a free and appropriate public education.
    Throughout his school career Kenny has had access to 
general curriculums, attended the neighborhood schools, and 
participated in a mixture of regular and special education 
classes all based on his individualized strengths and needs.
    National outcome data shows that 88 percent of parents who 
receive support from the Parent Centers feel more confident in 
their abilities to work with schools and participate in their 
child's education.
    Joining many other States, recently Nevada Assemblywoman 
Barbara Cegavsky spearheaded the Assembly Joint Resolution 
urging the President and Congress to increase Federal funding 
for IDEA.
    Most recently Nevada school districts reported spending 
annually $250 million on special education. The Federal funds 
to Nevada was $27 million. Special education revenue in Nevada 
comes from 10 percent Federal funds, 26 percent State share and 
64 percent from our local districts, which is a significant 
amount of money.
    IDEA appropriations do successfully impact outcomes for 
children with disabilities. When Kenny was 2, a neurologist 
shared with my husband and myself that he would probably never 
walk without an aid such as crutches or a walker.
    In his freshman and sophomore years of high school he ran 
the half mile for his track team, and now he proudly wears a 
State championship track ring. So IDEA funds made a difference. 
It was the early intervention, the physical therapy, his 
adaptive P.E. and the many special educators in his life that 
helped that to happen. It is just one personal example that if 
we keep our commitment to children, the successes that we will 
see.
    With the national focus on improving education, it is now 
more important than ever to increase the Federal commitment of 
funds for Part B, Part C and Part D of IDEA.
    We are facing a national shortage of qualified special 
education personnel. Programs and centers and improved 
education for new teachers must be financed to successfully 
accomplish the goal of educating our children. Parents, 
professionals, and related service personnel also need 
education programs and activities to learn to adopt the 
research-based best practice. Part D of IDEA supports national 
activities such as statewide improvement, research and 
innovation, technical assistance, personnel preparation and 
Parent Centers.
    Today I join with the Parent Centers across the Nation, and 
including the executive director of the Iowa parent center 
where Senator Harkin is from, and strongly recommend the 
increase for Parent Centers in the Part D appropriation.
    For example, Nevada's allocation as a parent center is 
$210,000 annually. We are responsible for 42,000 children 
statewide. This is the fastest growing urban community, and the 
variable needs, to our most rural communities, such as 
Esmerelda, that serves fewer than 10 children with 
disabilities. This makes it very difficult for us to reach all 
families in Nevada on that appropriation.
    Documented outcomes from Parent Centers are important and 
prove that parents' involvement works. The National Alliance of 
Parent Centers data shows that Parent Centers help improve 
educational outcomes, reduce systemwide reliance on costly 
litigation, and ensure that parents and schools work in 
partnership. Research clearly demonstrates that parent 
involvement is key to student success.
    I can provide the outcome data for the Senators, as well.
    The IDEA reauthorization debate has begun. Many issues of 
concern are circulating through the education community, such 
as the lack of qualified teachers, too much paperwork, and the 
narrowing of eligibility criteria.
    As a parent and an advocate, I believe the protections of 
IDEA are crucial and that the answer is not to eliminate those 
protections, but to plan more effectively and use the increase 
in Federal funds to fully implement IDEA.
    I believe the recently passed Senate Budget Resolution to 
fully fund IDEA by 2008 using a phase-in method, would allow 
for effective planning by the State to implement IDEA.
    In talking a little bit about Part C of IDEA, in Nevada 
there are 1997 infants and toddlers receiving early 
intervention services. However, studies indicate that 3 percent 
of babies are born with disabilities. This is an estimated 700 
children in Nevada that are not receiving early intervention 
services.
    On top of not identifying children for early intervention 
service, Nevada programs for several years unfortunately have 
retained a waiting list of over 100 children. Although the 
quality and range of early intervention services has improved 
since Part C has been adopted, there are an inexcusable number 
of infants and toddlers in Nevada not receiving any early 
intervention services. An enhancement of funding for Part C is 
essential.
    Senator Reid, I thank you for inviting me to speak today. 
I'd like to take this opportunity as the mom of an 18-year-old 
almost out of school to thank all that are involved, the, 
educators, policy makers, local, State, and national, who have 
made it possible for my son to go to school, to live, learn and 
work as a member of his community, when 25 years ago that would 
not have been possible.

                           PREPARED STATEMENT

    So we have to celebrate our successes and continue moving 
forward. I urge the committee to support the full funding of 
IDEA to fulfill America's promise to all of our children with 
disabilities.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Karen Taycher
    Chairman Harkin, Senator Reid and distinguished members of the 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies.
    Thank you for inviting me to participate in this special field 
hearing. I am honored to be given the opportunity to support full 
funding of IDEA, and to share with you why the Individuals with 
Disabilities Education Act appropriations are critical to the success 
of our children.
    I am the proud mom of two sons. My older son, Kenny, a senior in 
high school with visual and hearing impairments, learning disabilities 
and neurological involvement is my inspiration for being here today and 
for the work I do every day as the Executive Director of Nevada Parents 
Encouraging Parents (PEP). Parents Encouraging Parents is Nevada's 
Parent Training and Information Center, funded, in part, by Federal 
IDEA Part D appropriations. IDEA Part D funds support nationally 105 
Parent Training and Information Centers and Community Parent Resource 
Centers. There is at least one Parent Training and Information Center 
per State to provide support, training, and information for families of 
infants, children and youth with disabilities. Both the Parent Training 
and Information Centers and Community Parent Resource Centers will be 
referred to as ``Parent Centers'' throughout this presentation.
    There are over 42,000 children with disabilities birth through 21 
years old in Nevada, and an estimated 6.2 million nationally. Parent 
Centers nationally serve over 2 million families and professionals, and 
in Nevada our funds have allowed us to reach only 6,500 families. In 
addition to serving families, Nevada PEP provides information and 
training services to over 3,800 teachers, related service personnel, 
and paraprofessionals. Believing strongly that when families and 
dedicated educators work together, and learn from each other, the 
opportunities for school, community, and home success dramatically 
increase for children with disabilities. National Parent Center data 
shows that 368,574 parents and 147,840 professionals in 2001 together 
attended training workshops offered by Parent Centers.
    The information and support I have received as a result of the 
Parent Training and Information Center encouraged me to partner with 
the schools, advocating that my son receive a free appropriate public 
education. Throughout his school career, Kenny has had access to the 
general curriculum, attended neighborhood schools and participated in a 
mixture of regular and special education classes based on his 
individualized strengths and needs. National outcome data from Parent 
Centers shows that 88 percent of parents who received services from a 
Parent Center feel more confident in their ability to work with the 
schools and participate in their child's education.
    Joining many other States, recently Nevada Assemblywoman Barbara 
Cegavske spearheaded an Assembly Joint Resolution urging the President 
and the Congress to increase federal funding for IDEA. The Resolution 
calls for a strong partnership between local, state and federal 
governments in order to fully meet the needs of children with 
disabilities.
    In fiscal year 2001, Nevada school districts reported spending 
approximately 250 million from all revenue sources on special 
education. Federal grants to Nevada for fiscal year 2001 special 
education were 27 million. For fiscal year 2001 the special education 
revenue in Nevada comes from 10 percent federal funds, 26 percent state 
share and 64 percent percent local which is a significant amount to 
each school district's general fund. The average per pupil expenditure 
in Nevada for special education students is approximately 2.5 times the 
average expenditure for a general education student.
    The federal fiscal year 2001 and 2002 IDEA increases have helped 
but the federal appropriation is still well short of the 40 percent 
originally promised. The recent appropriation increases to Nevada have 
provided for additional training of teachers, parents and 
administrators. More children with disabilities have received the 
specialized equipment and assistive technology necessary for them to 
access and meaningfully benefit from their education. The additional 
funding supported the provision of related services, special education 
bilingual services, extended school year services, and teacher 
assistants to support children with disabilities in the Least 
Restrictive Environment.
    IDEA funds do successfully impact outcomes for children with 
disabilities. When Kenny was two years old a neurologist told us that 
he would probably never walk with out crutches or a walker. In his 
freshman and sophomore years of high school he ran the half-mile for 
the school track team and now proudly wears a state championship ring. 
This is a direct result of IDEA funds. It was the early intervention, 
physical therapy, adaptive PE, vision specialists, dedicated special 
and general educators who helped to make this happen. This is just one 
personal example of the success children with disabilities can achieve 
if we keep our commitment. It is important to recognize that great 
progress has been made, however current research shows a need to 
continue improving outcomes in such areas as graduation and employment 
rates. With the national focus on improving education as a whole, it is 
now more important than ever to increase the Federal commitment of 
funds for Part B, Part C and Part D of IDEA, to improve academic 
achievement and successful outcomes for children with disabilities.
    There is a national shortage of qualified special education 
personnel. Programs, incentives, and improved education for new 
teachers must be funded to successfully accomplish the goal of 
providing a free appropriate public education for children with 
disabilities. Parents, paraprofessionals, related service personnel and 
administrators also need access to education programs and activities to 
learn and adopt research based best practice. Part D of IDEA supports 
national activities such as statewide improvement, research and 
innovation, technical assistance and dissemination, personnel 
preparation, and Parent Information Centers.
    I join with the Parent Centers across the country who are strongly 
recommending an increase to the Parent Center Part D appropriations, 
for a total of $64 million in fiscal year 2003. For example Nevada's 
allocation of Parent Training and Information funding is only $250,000 
annually. Nevada PEP is responsible for the entire state which has over 
42,000 families from the fastest growing urban community in the nation, 
Las Vegas, to the small rural county of Esmerelda, which serves fever 
than 10 children with disabilities. The heartbreaking complaint I 
continually hear about Nevada PEP is that parents are upset that they 
did not know about us sooner. They wish they would have had access to 
the support and information when their children were younger. 
Additional Parent Center funding would help us to reach more of the 
35,000 families who currently do not receive Parent Center information 
or support
    Documented outcomes prove that Parent Centers are an integral 
component of the special education process. Data shows that Parent 
Centers help to: improve the educational outcomes and life skills of 
students with disabilities; reduce system-wide reliance on costly 
litigation to resolve problems; improve parent involvement and 
satisfaction with educational programs; ensure that parents and schools 
work in partnership and raise long-term employment outcomes for persons 
with disabilities. Research clearly demonstrates the parental 
involvement is key to student success. I have copies for you today of 
the Technical Assistance Alliance for Parent Centers (Alliance) 1997 
through 2001 Parent Center Outcome Data.
    The IDEA reauthorization debate has begun. Many issues of concern 
are circulating through the education community, such as a lack of 
qualified teachers, the suggestion of too much paperwork, and the 
narrowing of eligibility categories. As a parent and an advocate, I 
believe the protections in IDEA are crucial and that the answer is not 
to eliminate the protections but to plan more effectively, and to use 
the increase in federal funds to fully implement IDEA. For example 
paperwork reduction would occur if special education teachers had 
smaller caseloads, more contact with their students, clerical support 
and the opportunity to build trusting relationships with families. 
Kenny is now in the transition phase of his education, learning about 
adult services and requiring community based instruction. His 
Transition Specialists covers youth with disabilities at over five 
largely populated high schools in our community. Our special educators 
are sometimes expected to do the impossible, not because of the IDEA 
law and regulations but because of the lack of funding to support an 
appropriate number of qualified personnel. I believe that the recently 
passed Senate Budget Resolution to fully fund IDEA by fiscal year 2008, 
using a phase in method, would allow for effective planning by states 
and districts to address many of the concerns now being debated.
    I join with the National Coalition of Parent Centers to recommend 
that the Parent Information and Training program funded under Section 
303 of title III of the Rehabilitation Act be increased $7.5 million to 
include funding for every Parent Center to have transition/
rehabilitative staff available to help families and students transition 
from the world of school to work and community.
    Nevada is currently providing 1997 infants and toddlers with early 
intervention services. Studies indicate that 3 percent of the birth to 
3 population is born with disabilities. Consequently, it is estimated 
that over 700 infants and toddlers in Nevada have not been identified 
and are not receiving early intervention services. Early intervention 
programs in Nevada for several years have unfortunately retained a 
waiting list of over 100 infants and toddlers statewide. Many research 
studies show that children with developmental delays are healthier and 
learn better when they receive services as early in their lives as 
possible.
    When Kenny was two years old, Part C had not been passed yet. 
Nevada did have an early intervention program but it was difficult to 
get in. It was a medical model. You took what they had, and it did not 
include family supports. Now families experience much more supportive 
services based on their individualized needs, and families continue to 
receive support through the transition into the public school system.
    Although the quality and range of early intervention services has 
improved, there are an inexcusable number of infants and toddlers with 
disabilities who are not receiving early intervention. An enhancement 
of funding for Part C of IDEA is essential.
    Mr. Chairman, Senator Reid and Members of the Subcommittee, I thank 
you for inviting me to speak to the Subcommittee today. I would also 
like to thank the thousand of advocates, educators, policy-makers, 
including local, state, and national leaders who have made it possible 
through IDEA for my son with multiple disabilities to live, learn and 
work as a member of his community. I urge you to fully fund IDEA to 
fulfill America's promise to all of our children with disabilities.

    Senator Reid. Our next witness, Albert Maldonado.
    He didn't speak any English when he came to Las Vegas from 
Mexico City when he was 15 years old. By his senior year in 
high school, thanks to the intensive English program at Las 
Vegas High School, he won awards for attendance and scholastic 
achievement, and served as vice-president of the student 
organization of Latinos. Mr. Maldonado is going to share with 
us the impact of English language learners programs has had on 
his life.
    Alberto.
STATEMENT OF ALBERT MALDONADO
    Mr. Maldonado. First of all, thank you, Senator Reid, for 
giving me the chance to be here. Thanks to all of you for being 
here.
    Can everyone hear me? I'm sorry.
    When I came here to the United States 9 years ago I felt 
lonely and afraid knowing that I had to learn a new life, a new 
language, a new culture, how to walk on the streets, even how 
to ride a bus.
    I remember clearly I arrived on Saturday morning and by 
Monday morning I was in school. I had very strict parents, as 
you can see. I didn't know anything, zero, nada, as we all say. 
I was afraid that everyone wants to--was going to speak English 
to me and I was not going to be able to respond, or I just 
didn't know what to do. I was terrified, if you will.
    That first day I met my teacher, Ms. Hernandez. I remember 
I would not say a word. Of course, I didn't know how to speak 
English. I listened to what she was saying. I didn't know that 
she could even speak English. She is actually fluent in 
English--Spanish.
    I felt more comfortable at the end of the class knowing 
that I had found someone that could speak my language and I was 
actually able to communicate.
    After that, I found other teachers who would help me to 
learn English. One of them was Mrs. Williams, that taught me 
everything from my basic words like window, door, hello, and 
how to make sentences and talk to people in English.
    Mr. Luna taught me my U.S. history, helped me to learn my 
new culture. After my first year Mrs. Leoni helped me to learn 
and how to read independently English so I could learn more and 
do research.
    Mrs. Monroy helped me to learn to write correctly in 
English and how to read more advanced material. I began to 
speak more English and joined the student organization of 
Latinos where I made friends and worked on community services 
projects.
    When I passed my proficiency test, which it was actually 
the second year that I was here, my junior year, I felt I had 
made a big challenge and I could finally achieve all my goals. 
I was the first person in my family to graduate from high 
school, believe it or not. They have been here for quite a long 
time, and I was the first one to graduate from high school.
    My family just looked up to me to accomplish things that 
they couldn't do. I knew I had the chance to go to college 
where I can develop my skills. I am so thankful for my school 
my teachers and, first of all, the EOL program, because without 
it, I wouldn't be here today. I wouldn't be able to speak to 
you in English. I wouldn't have a chance to even go to school 
or go to work without knowing my second language, which now, 
thanks to my wife and all my friends, it is my first, first 
language now. I believe that I am an example of what can happen 
when schools and teachers really care.
    Last but not least, I want to thank you for having the EOL 
program, because without it, once again, people like me that 
come from a different place, not knowing anything, wouldn't 
have a chance to succeed.
    I had a dream. I had an ambition. I had the eager desire to 
be here, to learn. But without the chance, without programs 
like EOL, I wouldn't be here. So today I want to thank all of 
you. I want to thank Senator Reid and everyone else who is here 
for fighting, if you will, towards our goals, helping us all to 
have programs, going all the way to Washington to speak for us.

                           PREPARED STATEMENT

    So I thank you all, and I thank all the parents. And I do 
ask to please help their children at home, because I believe 
that--and I think, my parents were strict, I believe if they 
help us at home, we can do better at school.
    Thank you, Senator Reid.
    [The statement follows:]
                 Prepared Statement of Albert Maldonado
    When I came to the United States nine years ago, I felt lonely and 
afraid, knowing that I had to learn a new life--a new language, a new 
culture, how to walk on the streets. I arrived on a Saturday, and 
Monday morning I was in school. I didn't know anything, and I was 
afraid everyone was going to speak English to me, and I wouldn't know 
how to act or respond to those people.
    That first day, I met my teacher, Ms. Hernandez. As I remember, I 
would not say a word. I just listened to what she was saying. I didn't 
know that she could speak Spanish. I felt more comfortable at the end 
of the class, knowing I had found someone who could speak my language. 
I could communicate!
    After that, I found other teachers who would help me learn English. 
Ms. Willems taught me everything, from basic words like ``window'' and 
``door'' to how to make sentences and talk to people in English. Mr. 
Luna taught me U.S. history and helped me to learn the culture. After 
my first year, Ms. Leone helped me learn to read independently in 
English so I could learn more and do research. Ms. Monroy helped me 
learn to write correctly in English and to read more advanced material. 
I began to speak more English and joined the Student Organization of 
Latinos, where I made friends and worked on community service projects.
    When I passed my proficiency tests, I felt like I had met a big 
challenge and could finally achieve all my goals. I was the first 
person in my family to graduate from high school, and my family looked 
up to me to accomplish things in life that they couldn't. I knew I had 
the chance to go to college and have a career where I could help others 
and develop my skills. I am thankful for my school, my teachers, and 
the ELL program. I am an example of what can happen when schools and 
teachers really care.

    Senator Reid. English is pretty good, isn't it?
    Mr. Maldonado. Thank you.
    Senator Reid. I guarantee you his second year was better 
than my Searchlight English.
    Jennifer Parmeley and her son have participated in Early 
Head Start Programs for over 2 years. As a teen mother, 
Jennifer is working hard toward her goal of being a good mother 
and a good college student. But where others may have given up, 
Jennifer has not. She has worked hard to achieve these goals 
and has maintained a 3.8 grade point average in University of 
Nevada Reno honors program.
    Although Early Head Start and Head Start programs are 
funded through the Department of Health and Human Services, 
Jennifer can explain how they helped to advance not only her 
son's education, but her own education.
    Please proceed, Jennifer.
STATEMENT OF JENNIFER PARMELEY
    Ms. Parmeley. Before I start, I just want to say how 
grateful I am to be given this opportunity to talk about a 
program that has changed my life.
    My goals appeared impossible. I was pregnant and I was 
devastated. Forget college; I wasn't sure I could graduate high 
school, but I did and I had my son in January of 2000. When he 
was 4 months old we moved from Las Vegas to Reno. I was going 
to make use of my scholarship and attended the University of 
Nevada at Reno. But with only my scholarship I still wouldn't 
have been able to afford to go to school. Where would I have 
found quality child care I could afford? The Early Head Start 
program gave me that opportunity.
    Every step of the way Early Head Start has supported me. If 
I've needed anything, the staff has been there to assist me. 
When my car broke down and I couldn't get to class, staff 
members picked me up and drove me to school. When I have a 
question about nutrition or discipline or safety or healthcare 
or any of the millions of things that new parents wonder about, 
there's someone knowledgeable to answer it. They've given me 
referrals to WIC, food stamps, Medicaid and rental and energy 
assistance programs.
    When I couldn't afford immunizations they helped me find a 
place to get them for free. Out of things I have at home, I've 
learned to make toys that reinforce what my son is learning in 
school. They even give us a book every month. There are parent 
meetings and family support groups that give me the opportunity 
to interact with other parents and to develop self-assurance.
    I am able to volunteer in my son's classroom; I'm involved 
in the policy council. They've helped me evaluate my goals and 
break them into small, manageable steps, so I can see how to 
achieve them. But it's not about them helping me. It's about me 
learning how to help myself, and that makes all the difference 
in the world. I not only have confidence as a parent, but also 
as a person, because of this program.
    Early Head Start is more than just a day care. My son has 
had his hearing checked, his vision checked, and his teeth 
fluoridated onsite, while I was at school. When my son is 
there, I know he's not just being supervised, he's being 
educated.
    I am consistently amazed at the new things he's learning. 
Not just cognitive or language development; he's learning how 
to interact with adults and other children. Even when our home 
has not been stable, I know his classroom has. He's had the 
same teachers since we came to the program, and most of the 
same classmates.
    His routines are familiar, the people are kind, interested 
and involved, and the place feels like home. I know he'll have 
a nutritious breakfast, lunch, and snacks. They provide the 
diapers he uses at school, and since diapers cost about 25 
cents each, that's a tremendous help.
    Not only does Early Head Start help with my educational 
goals, I know the opportunities he's getting right now will 
stay with him forever. I know that he won't trail behind more 
affluent children in kindergarten. He'll be more likely to 
graduate high school because of the program. He's being read 
to, not just left in front of a television. He's learning to 
put puzzles together and learning to build towers so tall that 
in the future, he'll reach the sky.
    My son is now 6 months from graduating from the program and 
they're helping me find a new child care arrangement. I could 
enroll him in the Head Start program, but it's only available 
for half days 4 days a week, not enough time for me to go to 
school and work. So Early Head Start referred me to a subsidy 
that will help me pay for childcare. I'm sorry to leave the 
Early Head Start program, and I wish that there were a Head 
Start that could meet our needs.
    Because this program exists, I've been able to pursue my 
degree, and I'm hoping to attend law school, and eventually 
become a lawyer or even a lobbyist. Because this program 
exists, the dreams that were impossible when I first learned I 
was pregnant are now attainable.

                           PREPARED STATEMENT

    Early Head Start gives so many families like mine the 
ability to find self-sufficiency through education. My only 
wish is that more families could be served. Imagine what would 
happen if every impoverished child had a head start.
    [The statement follows:]
                Prepared Statement of Jennifer Parmeley
    My goals were impossible. Forget college; I wasn't sure I could 
graduate high school. But I did, and then I had my son, and in January 
of 2000, when he was four months old, we moved from Las Vegas to Reno. 
I was going to make use of my scholarship. But with only my scholarship 
I wouldn't have been able to afford to go to school. Where would I have 
found quality childcare I could afford? The Early Head Start program 
gave me that opportunity.
    Every step of the way Early Head Start has supported me. If I've 
needed anything, the staff has been there to assist me. When my car 
broke down and I couldn't get to class, staff members picked me up and 
drove me to school. When I have a question about nutrition or 
discipline or safety or healthcare or any of the millions of other 
things that new parents wonder about, there's someone knowledgeable to 
answer it. They've given me referrals to WIC, food stamps, Medicaid and 
rental and energy assistance programs. When I couldn't afford 
immunizations they helped me find a place to get them for free. Out of 
things I have at home, I've learned to make toys that reinforce what my 
son is learning in school. They even give us a book a month. There are 
Parent Meetings and Family Support Groups that give me the opportunity 
to interact with other parents and develop self- assurance.
    I am able to volunteer my son's classroom; I'm involved in the 
Policy Council. They've helped me evaluate my goals, and break them 
into small manageable steps, so I can see how to achieve them. But it's 
not about them helping me. It's about me learning how to help myself, 
and that makes all the difference in the world. I not only have 
confidence as a parent, but also as a person, because of this program.
    Early Head Start is more than just a day care. My son has had his 
hearing checked, his vision checked, and his teeth fluoridated on-site, 
while I was at school. When my son is there, I know he's not just being 
supervised--he's being educated.
    I am consistently amazed at the new things he's learning. Not just 
cognitive or language development; he's learning how to interact with 
adults and other children. Even when our home has not been stable, I 
know his classroom has. He's had the same teachers since we came to the 
program, and most of the same classmates. His routines are familiar, 
the people are kind, interested and involved, and the place feels like 
home. I know he'll have a nutritious breakfast, lunch, and snacks. They 
provide the diapers he uses at school, and, since diapers cost about 25 
cents each, that's a tremendous help.
    Not only does Early Head Start help with my educational goals, I 
know the opportunities he's getting right now will stay with him 
forever. I know that he won't trail behind more affluent children in 
kindergarten. He'll be more likely to graduate high school because of 
this program. He's being read to, not just left in front of a 
television. He's learning to put puzzles together, and learning to 
build towers so tall that in the future: he'll reach the sky.
    My son is now six months from graduating from the program and 
they're helping me find a new childcare arrangement. I could enroll him 
in the Head Start program but its only available half days four days a 
week not enough time for me to go to school and work. So Early Head 
Start referred me to a subsidy that will help me pay for childcare. I'm 
sorry to leave the Early Head Start program, and I wish that there were 
a Head Start that could meet our needs.
    Because this program exists, I've been able to pursue my degree, 
and I'm hoping to attend law school, and eventually become a lawyer or 
even a lobbyist. The dreams that were impossible when I first learned I 
was pregnant are now attainable.
    Early Head Start gives so many families like mine the ability to 
find self-sufficiency through education. My only wish is that more 
families could be served. Imagine what would happen if every 
impoverished child had a head start.

    Senator Reid. Nationwide there are more than 11 million 
children left alone and unsupervised during the after school 
hours. The juvenile crime rate is the highest between the hours 
of 3 p.m. to 6 p.m. After school programs like the 21st Century 
Learning Centers Program takes kids off the street kids, out of 
these houses and away from drugs.
    Through her daughter's experience, Paula Pressley has seen 
firsthand the impact the 21st Century programs on our children.
    Ms. Pressley.
STATEMENT OF PAULA PRESSLEY
    Ms. Pressley. Thank you, Senator Reid.
    I'd like to thank Sheila Moulton and Mary Beth Scow for 
inviting me here to speak on behalf of 21st Century Community 
Learning Center Program.
    My daughter's name is Jamie, and she is in 8th grade. She's 
been in the after school program since it's been started 2 
years ago. This is her second year with the Future Teachers 
program. It's one of the many activities that she really enjoys 
during the after school programs. The Future Teacher's goal is 
to go to the elementary schools 4 days a week to tutor the 
younger children.
    She also participates on Saturdays when they have the art 
classes and the many events that they offer with this program 
for the 21st Century--excuse me, people. I'm very nervous, can 
you tell?
    Okay. And I know this program has impacted her life in a 
positive way. She cares more about school than she ever had 
before. She hates to miss school at any time and she hates to 
miss any of the after school programs that she's attended.
    This program has helped her in many ways and it helped her 
feel good about herself. She's continued to work with the 
children inside school, outside school, all around.
    She has applied to several of the high school magnet 
programs. One of the programs which does offer the Future 
Teachers, I am sure the after school program has a positive 
effect on the younger students at Sunrise Acres School, also.

                           PREPARED STATEMENT

    When Jamie sees them at the store or they see her, they say 
``Hi, Miss Pressley,'' with a big smile on their face. It gives 
me great pleasure to know that there are opportunities like 
this program for my daughter and children like her to be able 
to make a difference.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Paula Pressley
    My name is Paula Pressley and one of my daughters is very active in 
the 21st Century Community Learning Center at Roy Martin Middle School 
in Las Vegas, NV. Jamie is an 8th grader. She has been active in the 
afterschool programs since they began two years ago. This is her second 
year as a part of the Future Teachers program, which is one of many 
activities held during the afterschool program. The Future Teachers 
take middle school age kids to Sunrise Acres Elementary School four 
days each week to tutor younger students. She also participates in the 
Saturday art classes and other events held through the 21st Century 
Community Learning Center program. I know that this program has 
impacted her life in a positive way. Since starting the program, she 
cares much more about school. She does not want to miss school. If she 
has a doctor's appointment, she says it must be after her future 
teachers program, because she doesn't want to miss tutoring the younger 
kids. The program helps her to feel good about herself. She wants to 
continue working with kids in some way even after she leaves middle 
school. She has applied to several high school magnet programs. One of 
the programs is for future teachers. I am sure the afterschool program 
has a positive effect for the younger students at Sunrise Acres 
Elementary School, too. When they see Jamie at the store, they say, 
``Hi Miss Jamie,'' with big smiles on their faces. It gives me great 
pleasure to know that there are opportunities like this program for my 
daughter and children like her, to be able to make a difference.

    Senator Reid. Carlos, Tammie, Karen, Alberto, Paula, 
Jennifer, we appreciate very much your addressing us here 
today.
    One thing that's not on the program, but I'm going to take 
the liberty, I've always been a big advocate for the Federal 
Government programs to help local school districts keep kids in 
school. It's the right thing to do for the children. It's the 
right thing to do for everybody that is paying taxes, because 
it saves money.
    We've struggled. Senator Bingaman from New Mexico and I 
have worked on this program for a number of years. We finally 
got a little bit of money last year for high school dropout 
programs. We know we have to move down lower than high school 
dropouts, but at least we need to work on these dropout 
programs. Even though it's not on the program because I see him 
here, Terry Lizotte is here. I may not pronounce your name 
right; how do pronounce your last name?
    Mr. Lizotte. You did it correctly.
    Senator Reid. Terry, would you come forth and tell us a 
little bit about the dropout programs and why we need more 
resources, and the resources we have, how much good they do.
    Please give your name for the reporter, and spell it.
STATEMENT OF TERRY LIZOTTE, DIRECTOR, GRANTS 
            DEVELOPMENT ADMINISTRATION, CLARK COUNTY 
            SCHOOL DISTRICT
    Mr. Lizotte. Terry Lizotte.
    Senator Reid. Something is not working. Maybe it's me.
    Mr. Lizotte. Terry Lizotte, L-i-z-o-t-t-e. I'm the Director 
of the grants development administration department for the 
school district. We have a variety of dropout programs. Each of 
them--quite a few of them have already been mentioned here 
today. I would like to take a couple minutes on some of them.
    Back in 1991 we began a program called ``The Las Vegas 
Program.'' That was a grant program which was probably one of 
the very first dropout programs that we applied for. It was a 
$3 million program that helped us start a Horizon High School 
program. That was specifically a program designed for credit 
deficient students. We have a variety of those since then. 
Since that program started we have over 1,800 students who have 
graduated that would not have graduated.
    So as far as money goes, as far as funding goes, those are 
one of the more important programs.
    You mentioned the 21st Century programs. We have a concern 
as far as that goes. Our district right now has a competitive 
grant and we have an earmark grant of about $1.1 million total. 
That's a terrific program. Susan Bonnar, who runs the program 
for us, is here and can provide more information about the 
individual activities, but one of my concerns is that the State 
of Nevada is only going to get $1.5 million this next year for 
the 21st Century Community Learning Center Programs.
    We know that Washoe County and several other counties have 
programs they would like funded, but that's a concern. We 
realize that the funding is not going to be available at the 
levels we would like to see it.
    In smaller communities there is also another program. As we 
all know, large schools are a standard in this county. We are 
working--again, another program that we got $250,000 planning 
grant for, we have just applied for $2.5 million to help our 
high schools, at least eight of them, develop smaller learning 
communities that are specifically designed to bring students in 
closer with the staffs, with the teachers, with the whole 
community, and help cut down, that is, to cut down on the 
dropout program or dropout problems that we have experienced.
    There is a lot of research that says smaller learning or 
smaller schools are able to respond better. With our tremendous 
growth of smaller schools, it is a challenge. So this is one of 
the programs that we are looking to try and help our large 
schools become smaller within the same walls.
    Another program also that we have found very successful as 
far as helping control the dropout program is our Indian 
education. Our Native American Indian students have been 
challenged probably more so than many.
    In the last 5 years we have had approximately 500 students 
graduated, 500 hundred Native American Indian students 
graduated. Easily a third to half of those students would not 
have graduated without Federal funds.
    Senator Reid. Is that Clark County figures?
    Mr. Lizotte. Yes, that's just our county. But easily a 
third to half of the students would not have graduated without 
the help of Federal funds. So we have a variety of programs 
that are working, unfortunately underfunded.
    Senator Reid. Each of these programs that you mentioned to 
us that are meritorious, according to you, but you could do a 
lot better you if you had more money, perhaps?
    Mr. Lizotte. Absolutely, sir.
    Senator Reid. Do you have any questions about that?
    Mr. Lizotte. No, there is no question in my mind. I don't 
think there is any question in anyone's mind who is working in 
the program.
    Senator Reid. Don't you think in the long run, as I 
mentioned to you, that it would save the taxpayers money if we 
gave more money to these programs to keep kids in school?
    Mr. Lizotte. Yes, sir.
    Senator Reid. Keep children and adults out of the criminal 
justice system, out of the welfare system, right?
    Mr. Lizotte. Definitely. Especially the programs like the 
after school programs, the 21st Century Community Learning 
Center. There are lots of students who are begging and lining 
up waiting for those programs.
    Senator Reid. Thank you very much.
    Mr. Lizotte. You're welcome.
    Senator Reid. Now, we would like to hear from those of you 
in the audience who, as I've indicated earlier, have a 
statement, a question, or short speech. Don't be bashful. Come 
forward.
STATEMENT OF CHOPIN KIANG, NEVADA DEPARTMENT OF 
            EDUCATION
    Mr. Kiang. Senator, my name is Chopin Kiang, with the 
Nevada Department of Education.
    I extend good wishes from Superintendent Jack McLaughlin, 
as well as member of the State Board of Education, Theresa 
Malone.
    Senator Reid. Please spell your name for the court 
reporter.
    Mr. Kiang. C-h-o-p-i-n, K-i-a-n-g.
    I would like to read a short statement that is a conveyance 
of the sentiment of both Ms. Theresa Malone as well as on 
behalf of the superintendent and myself.
    Senator Reid. Please proceed.
    Mr. Kiang. Please continue to appropriate education funds 
that would allow Nevada to receive the maximum amount possible 
for these programs. Additionally, Nevada continues to seek 
Federal funding to push forward the A-plus project entitled 
Center for Academic Student Achievement, CASA.
    This effort has been the work of three educational 
entities, the Nevada Department of Education, the University of 
Nevada at Las Vegas, UNLV, and the Clark County School 
District, under the leadership of Carlos Garcia.
    Together they are developing the future template to 
increase student achievement. We need this research center not 
only to serve Nevada students but also to serve the Nation.
    The best formula to provide student achievement is the 
desire of every educator. This A-plus research project will 
provide that formula, train educators, and track the successes 
of student progress. That's the verbatim quote from the 
document that has been submitted officially to this panel 
through your staff.
    I would also like to add two other comments. First, the 
testimony of Alberto Maldonado, sir, I would like to tell you 
that 40 something years ago I, too, experienced your 
experiences in the new country that I came to. And today 
English is my first language as well, and I'm proud to be an 
American.
    Thank you for saying what you said today.
    Mr. Maldonado. May I address him?
    Senator Reid. Alberto wanted to respond to you.
    Mr. Maldonado. I wanted to respond to that. Actually, I 
just wanted to ask, don't you think that, I don't know if when 
you came over they had this kind of program, but now that they 
do, don't you think that without this program, okay, without 
the programs you and I wouldn't have the chance to be here.
    So with this program we have a great, greater chance for us 
to be better to our community. So I thank you and I admire you 
for being here. And I want to say once again, thank you to 
everyone that supports every program for this district, school 
district, if you will.
    Thank you.
    Mr. Kiang. Thank you. And also, to piggyback on that 
statement, and it is really my second point as well, I want to 
point out in response to Karen Taycher's testimony, when I came 
to America I, too, was also placed in a special program for the 
speech impediment human being, as well, for a person who 
couldn't speak English.
    And as a result of a special ed program, and without the 
help of ESL program in those days in 1950s, I actually became 
an educated person today. So please support both the issue 
regarding limited English proficient students as well as 
students with disabilities which are whole heart, Senator, 
because I really think we all deserve to be treated equally.
    Thank you.
STATEMENT OF MARSHA WASHINGTON, NEVADA STATE BOARD OF 
            EDUCATION
    Ms. Washington. Good morning.
    First of all, my name is Marsha Washington. I'm with the 
State Board of Education. I'm a State Board of Education 
member. I'm also an employee with the Clark County School 
District.
    I have a number of questions. The first question is, I know 
that there is a literacy problem in this country, and I know 
that there is a new H.R. 1 bill that's supposed to assist with 
children, with No Child Left Behind.
    What I am trying to figure out is how is it the Federal 
Government bails out savings and loans, bails out airlines, but 
they can't bail out education? That's one of my serious 
concerns. We can find money for every other cause, but we can't 
find money to educate our students. And that's my big concern.
    Thank you.
    Senator Reid. Marsha, that's what this hearing is all 
about. We have to do everything we can to focus attention. I 
think we've done that here today on programs. You know, people 
are afraid to talk about programs. I think we need to do that. 
Let people know these programs are not just numbers on a chart. 
We have lots of charts you can see. But actual human beings.
    You know, I don't know how the rest of you felt, but when 
Karen talked about her boy running, what did he run, the mile, 
half mile?
    Ms. Taycher. Half mile.
    Senator Reid. Half mile, that brought tears to my eyes. 
That's what this is all about. This is a program that cost a 
lot of money. These programs cost money. But they wind up 
helping people, and they wind up in the overall scheme of 
things saving us money.
    Listen to what Jennifer had to say. I mean, gee whiz, look 
at what we have here, because of programs, and I think it's a 
sad commentary on what we're doing in Washington in not fully 
funding Head Start. Her little boy should be in the Head Start 
program. He's not going to be in the Head Start program. That's 
too bad.
    So Marsha, you're absolutely right, and I appreciate your 
focusing on this again. Anyone that will listen and those that 
won't listen, just scream a little louder, we have got to take 
care of education, and it doesn't come on the cheap. You can't 
educate people by putting a fancy name on a bill. I'd rather 
have an ugly name on a bill and money that goes to school 
directly. Leaving no child behind and having no money is 
leaving the child behind.
STATEMENT OF ISAAC BARRON, TEACHER, RANCHO HIGH SCHOOL, 
            CLARK COUNTY SCHOOL DISTRICT
    Mr. Barron. Good morning, Senator Reid, members of the 
panel. My name is Isaac Barron. I am a teacher at Rancho High 
School.
    Senator Reid. Spell your name for the reporter.
    Mr. Barron. I-s-a-a-c, last name B-a-r-r-o-n.
    I'm happy to say I'm a product of the Clark County school 
district and UNLV. I have been teaching at Rancho High School 
for 5 years now. It's more than a question, mostly a 
commentary. Over at Rancho High School I have 2,800 students. 
And of those 2,800 students, about a little over 600 of them 
are ESL students, okay, about 22 percent of the population of 
our high school.
    We have eight ESL teachers. Very easily we have the largest 
program in the, probably in the school district, but only eight 
teachers to serve them. Last year there were some rumors that 
there might even have been some staff reductions in the ESL 
department at Rancho High School, but through a little bit of 
creative staffing there, right, and redefining our positions, 
we were allowed to have more ESL teachers.
    I know our State, to this point, they have not put their 
money where their mouth is. They say they are really for 
education, but we haven't seen the money yet. We need help from 
the State and we need help from the Federal Government. If I 
need to go down to Washington with you, Senator Reid, I'd be 
happy to. I'd be happy to.
    But getting away from the rhetoric, quite honestly, it is 
very difficult as a teacher to do a great job, to produce a Mr. 
Maldonado, someone that we can really be proud of, a 
successful, productive member of society when we have 40 kids 
in our classroom. Okay, four classrooms, 40 kids in a 
classroom, it's really hard to get down to each individual 
person and give them the individual attention they need.
    You know, at Rancho High School I can honestly say that I'm 
really happy with the staff we have there. We have a great 
diverse staff, people of many ages, various ages and racial 
backgrounds. We have a very dynamic staff, great 
administration. The students are wonderful. We can get the job 
done if we give them the tools. During World War II, that was a 
very popular statement, give us the tools, we will get the job 
done.
    We are in a battle right now. This is the same thing. We 
are in a battle right now. We have a real war, a student war 
going on right now. We have a battle right now. We are losing 
part of our generation. There are some kids who are always 
going to be helped, some kids who are always going to have 
access to education. Unfortunately not everyone can have that. 
Instead of cutting, we need to be backing.
    Senator Reid, I hope you do everything that you can. And I, 
myself, I can honestly say I'm behind you, and any backing that 
you need from me, well, you can personally give me a call at 
Rancho High School, I'd be happy to help you, and I hope 
everyone else here feels the same way.
    Senator Reid. You're a little short for that microphone. 
There you go. Perfect.
STATEMENT OF MARY GREENE, PRESIDENT, NATIONAL 
            ASSOCIATION FOR THE GIFTED AND TALENTED
    Ms. Greene. Can you hear?
    My name is Mary Greene, G-r-e-e-n-e, and I am a teacher in 
the Gifted and Talented Education Program here in Clark County. 
I'm also the president of the National Association for the 
Gifted and Talented.
    I wish to say thank you to Senator Reid in person and in 
front of people. For the record, in February I was in 
Washington and scheduled a meeting with Senator Reid to ask for 
his support for increased funding to an act that we have that 
helps to provide research and development for the gifted and 
talented population.
    That is a population that is just as needy as any other. If 
you look at the record, 18 to 25 percent of our dropout rates 
comes from our gifted population. They are our children that 
underachieve in school, and they are our little lost souls that 
are sitting in classrooms not being challenged.
    This historic part of the reason we are asking for 
increased funding is because we now have as part of the data 
back State grants which is money that's available for States to 
compete for. But the money that was available now is $3.5 
billion for 50 States to compete for, which is not a lot of 
money.
    It's the first time that money was to be put into the hands 
of programs that do exist, and it is the first time that 
programs would be able to be brought into States, and so our 
request was for an increased funding of $14 million so we could 
have that much money available for States to compete for.
    I want to thank you, Senator Reid, for your support. He 
agreed to co-sign a letter that we have circulating to the 
Senate now, and also Congresswoman Burke has co-signed too, we 
have both of you on board. I just appreciate your support, your 
patience, your kindness, your generosity, and your support for 
the children. They are most important.
    Senator Reid. Thank you very much.
    I was going to mention, I didn't know you were in the 
audience--could you, Carlos--this was a dramatic meeting I had 
in Washington where these women came to talk about what this 
Gifted and Talented is, it means smart kids, kids who have very 
high IQs, 130 IQs. These kids are being lost just like kids who 
are not very smart. Both ends of the spectrum we have problems. 
These smart kids deserve some attention just like the other 
kids.
    The statistics just sear your soul. Half the kids that drop 
out are gifted and talented?
    Ms. Greene. Between 18 and 25 percent.
    Senator Reid. 25 percent of them. Can you imagine, these 
are people who could be an engineer, who could be a college 
professor, a doctor, a lawyer, or whatever they want to be, and 
they are out with no financial assistance.
    So I appreciate your being here today. This education thing 
is very, very serious, especially when you keep in mind these 
numbers. Last year at this time we had a surplus over the next 
10 years of $4.7 billion--$4.7 trillion. One year later that's 
all gone. It's all gone.
    We are now spending Social Security trust fund monies, 
Medicare trust fund monies, and about 25 percent of that is 
related to the war, the other 75 percent is related, in my 
opinion, to this goofy idea of tax cuts, and, you know, it's 
not easy to vote against tax cuts, but I never had one of these 
rich people come to me, and I'm serious as I can be, I've never 
had one of these rich people come to me and say would you cut 
my taxes. I haven't.
    And so anyway, I don't want to belabor the point. But we 
are really hurting for resources, and we have got to do 
something for education, and Nevada is the poster child of 
what's wrong with education because of lack of money, in my 
opinion.
STATEMENT OF FERNANDO ROMERO
    Mr. Romero. Buenos dias.
    For the record, my name is Fernando Romero, F-e-r-n-a-n-d-
o, R-o-m-e-r-o. Senator Reid, Superintendent Garcia, the panel 
members and distinguished audience. I, too, identify with Mr. 
Maldonado and Mr. Kiang. I started first grade without knowing 
the language. And I come from the great nation of El Paso, 
Texas.
    I realize the need obviously for bilingual education 
programs. Thirty years ago a small group of us got together 
with Superintendent Kenny Guinn, and we pushed very hard for 
what is now the bilingual education program. I'm proud to say I 
was the first president of the Bien Benito Program in 1975 of 
the bilingual program.
    It is sad to know that the Spanish community has increased 
186 percent since 1992 in Clark County, and that the program, 
as hard as the various superintendents have tried, and as hard 
as Superintendent Garcia is trying now, we are falling behind.
    You go to the four DMV areas in Clark County and you see 75 
percent of people standing in line to pay for their 
registration, to pay their taxes, to do what has to be done are 
Hispanic. And yet we are criticized for wanting our school 
districts to expand on bilingual and ELL programs.
    And this is to urge you, Senator, and your colleagues, to 
think about our children, think about a growing community, to 
know and realize that the Hispanic is now not only a subculture 
of, but very much a part of the main culture of education of 
this country, and that money is spent to allow our children to 
learn, to grow, to prosper and to contribute.
    We are also a part of the No Child Left Behind, because 
there is no parentheses on children's program in the bill that 
excepts undocumented immigrants or children of undocumented 
immigrants or anything like that that excepts the Spanish 
children. We are part of all of this.
    We, as Mr. Kiang pointed out, also have children who are 
gifted, and I am proud to be the father of a daughter who is 
gifted, as you know, Senator Reid. I'm very glad to know that 
we try to get the programs going. At the time it was the gate 
program where she could take advantage of that. However, the 
funds are limited. And I'm here basically to speak on behalf of 
funds for our children who are wanting the language, who are 
wanting to give of themselves to this country.
    I do want to make a comment on a columnist that writes for 
the major newspaper in Las Vegas, that constantly uses the term 
``illegal immigrants'' and refers to our children and makes fun 
of our children as such, not realizing perhaps, I'm hoping he 
doesn't realize, the effect, the negative effect that he has on 
our children where they go to school and have other kids refer 
to them as ``illegals'' or ``undocumented.''
    And I'm hoping that this particular newspaper will view 
that or view this very seriously and have that individual stop 
ridiculing our children, stop ridiculing the children who are 
trying to pledge their allegiance to this country in their own 
native tongue because they can't in English. They are trying to 
learn. And yet they are being ridiculed for demonstrating their 
patriotism in a language that is the major language of the 
western hemisphere, in Spanish.
    Again, Senator, I hope you're able to successfully deliver 
the message of most of us that are here to your colleagues. 
Thank you very much.
    Senator Reid. When you ladies finish, I want to make sure 
that we call upon someone who represents the teachers. Ken, I'm 
going ask you, when these two ladies complete their statements, 
come forward and give us your view as to what's facing Nevada's 
education from a teacher's perspective.
STATEMENT OF LINDA RIVERA
    Ms. Rivera. Hello, my name is Linda Rivera, R-i-v-e-r-a, 
and I'm an advocate for education and for children as a whole.
    As a community leader, we have put together a group that 
coalesces together to try to bring about change with the Clark 
County School District. We need the support of the programs, 
the resources that are funded through the 21st Century, the ELL 
program, and all the others in order to coalesce to bring about 
change.
    We are here in the community. We have spirit. We have 
passion to bring this change, for the betterment of our 
community. But without the funding, without the resources 
available to us through general funding, we can't do that. 
Please take the word back they must continue. We cannot 
shortchange the future of this country, our children.
    Thank you.
    Senator Reid. For those of you who for various reasons 
don't want to say anything, but you do have something on your 
minds, there are some cards around that the staff, if you 
haven't picked one up, the staff will give one to you. We will 
make your comments part of the official record.
    Please proceed.
STATEMENT OF DENISE HEDRICK, INTERIM EXECUTIVE 
            DIRECTOR, EDUCATION COLLABORATIVE OF WASHOE 
            COUNTY
    Ms. Hedrick. Thank you.
    My name is Denise Hedrick, D-e-n-i-s-e H-e-d-r-i-c-k. I am 
the interim executive director for the Education Collaborative 
of Washoe County, which is a business and education partnership 
that is in business to improve education for all students, and 
that's P through 16. First of all, I want to thank you for 
bringing this hearing to our State so that your constituents 
can have an opportunity to respond and take that information 
back to Washington.
    I would like to go on record in support OF full funding the 
IDEA, and to do whatever is possible in a State and national 
level to decrease the disparity in the per pupil spending that 
Nevada that has available to them.
    Thank you.
    Senator Reid. We are going to hear from Mr. Lange and the 
lady over here, and that will be all the time we will have.
    Please proceed.
STATEMENT OF KENNETH LANGE, EXECUTIVE DIRECTOR, NEVADA 
            STATE EDUCATION ASSOCIATION
    Mr. Lange. The other microphone is too tall; this one is 
too short.
    Senator Reid. The microphones are just right. You're just 
not the right size.
    Mr. Lange. My mother keeps telling me to grow up.
    Senator Reid, members of the panel, Supervisor Garcia, 
thank you for the opportunity to address you today, and for all 
of the efforts that all of you have put into your children, 
into your lives, into your goals.
    Senator Reid. Spell your name for the record.
    Mr. Lange. I'm sorry. My name is Ken Lange, last name is 
spelled L-a-n-g-e. I'm the executive director of the Nevada 
State Education Association.
    Nevada educators work hard, they do well with our kids, and 
yet they've been asked to do more with less every year. And the 
No Child Left Behind Act is another example of downloading more 
responsibility without the necessary resources.
    The concept of leaving no child behind is not new. It's 
been a value in the hearts of teachers long before Mrs. 
Pickard, and will exist long after we have left, because that's 
what teaching and education is all about. That's why we are all 
here.
    The needs are many. We live in a complex society and also 
we would like to simplify it into norm reference test scores 
and put kids in boxes and limit them, limit their achievements 
ahead of time are dead wrong.
    We have in a complex society that requires many programs to 
address multiple needs. And many of those needs can only be 
addressed by broad growth plans that come from the Federal 
Government and empower to us do the job that we need to.
    Senator Reid, from our organization and the members we 
represent, we would like to thank you for your continued 
support of public education. It's been long, it's been deep and 
strong, and we appreciate that. We would like for you to carry 
the message back that we need to fully fund public education.
    And if I could, I have the great privilege of working as 
part of the team. I'm the executive director of the Nevada 
State Education Association. I'd like to introduce, if we 
could, have our president bring a few words as well, Mr. Terry 
Hickman.
    Thank you.
    Senator Reid. Please proceed.
STATEMENT OF LORETTA EVENSON, NEVADA STATE PARENT 
            TEACHERS ASSOCIATION
    Ms. Evenson. I'm Loretta Evenson and I am here representing 
Nevada State PTA. And I, on behalf Nevada State PTA, would like 
to encourage you to support the programs.
    You need the spelling of my last name? E-v-e-n-s-o-n.
    As evidenced by your panel today, these programs really do 
not only affect children, but their parents, and we just really 
appreciate everything you do. We want you to know you can count 
on Nevada PTA to support you in any way we can. Thank you.
    Senator Reid. As I proceeded through my career I've had a 
couple of interesting, difficult experiences. One of them was 
being a PTA president when my daughter was in school. The other 
was being a team mother for my boy's little league baseball. No 
one else volunteered, so I was the team mother.
STATEMENT OF TERRY HICKMAN, PRESIDENT, NEVADA STATE 
            EDUCATION ASSOCIATION
    Mr. Hickman. Good morning, Senator Reid, distinguished 
panel. My name is Terry Hickman and I am president of the 
Nevada State Education Association. My last name is H-i-c-k-m-
a-n.
    To summarize, I guess, how I feel is very simple, Senator. 
The rhetoric abounds----
    Senator Reid. You are a teacher; is that right?
    Mr. Hickman. I am president of the Nevada State Education 
Association. My last employment was Clark County School 
District. I was a counselor at Centennial High School. Moving 
on--my mother is in the audience.
    If I could, sir, for just a minute explain a little bit 
about Centennial, I'm very proud to have been a counselor at 
Centennial. I was the first teacher hired at Centennial and I 
worked there 6 months prior to the beginning of the school. But 
it became evident as the school began to open we had a 
beautiful school--$35 million of the taxpayers' money here in 
Clark County was there, and it was a great building.
    But when it came to textbooks, we had 1,700 students, and 
we didn't even have 1,000 textbooks in some areas. We had 
classes and a brand new school where they shared textbooks 
because there wasn't sufficient money to buy them. And that is 
not the Clark County School District's fault, it was simply 
symptomatic of what the rhetoric--how important public 
education is here, but we don't match it with the resources.
    We live in a time when nothing is more important than 
education. I was thinking a few months ago as I listened to 
President Bush talk about the need for a strong America, where 
is the strength of America? I believe it's in our public 
schools. Over 90 percent of the students in Nevada are in our 
public schools. They are the future. And if they do not have 
the resources, we cannot tell them to look back and say sorry, 
we couldn't afford it. You really weren't a priority.
    If education, if our future is that important, then we need 
to fully fund it, whether it be special ed or the other 
programs that we have talked about here. An opportunity lost is 
lost forever. We do not need in this State to hear further 
rhetoric about how important education is and yet in this State 
we rank 45th in per pupil expenditures. We are nearly $1,400 
per pupil behind the national average.
    As a counselor, if I were to tell a parent your child is 
average, I would have a very tough time maintaining my 
relationship with that parent. No one wants to be just average. 
But in this State we fall below average except when it comes to 
the efforts of our teachers and support professionals, because 
they work hard and do more with less.
    The Federal Government, as I would say to our own State 
government, the time to match the rhetoric with resources is 
now. We cannot lose a generation to tax credits and other 
issues which seem to be so important. Vouchers and other 
programs which seem to help just a few, are not the answer, and 
they are wrong.
    What is important is the opportunity for every child, 
whether they come to this country from another country or are 
born and raised, every child deserves that opportunity, and I 
implore you when you go back to Washington to stay firm and to 
stand fast and to say if public education is our priority, then 
let us match those resources to the rhetoric.
    Thank you.
    Senator Reid. We have had the opportunity here today to say 
things that have been constructive in nature as far as the 
legislation that's pending and also being critical of that 
legislation, that talk about the needs of this very large 
school district and the needs of the State of Nevada generally.
    Part of the greatness of this country is we are able to do 
that. We are able to talk about things that people may not want 
us to talk about. We are able to disagree with others. I can 
walk out of here today and you can walk out of here today and 
not be worried about someone beating you up because of your 
comments or doing physical harm to your home or your house or 
your family.
    That's really good. I think that we have to stop and think 
about what a great country this is. I have said on a number of 
occasions, and I certainly don't hesitate in saying it today, 
my father never graduated from the 10th grade, my mother never 
graduated from high school.
    But in this country it doesn't matter the color of your 
skin, your religion, your economic background. And as a result, 
this country that we have, that we live in, which is imperfect, 
but I've been able to get a really good education. But we have 
so many problems in our public education system that I don't 
think we had when I was growing up.
    I would hope that we would all keep our eyes on the prize, 
and the prize are those children that we see every day, whether 
they are in our family, or wherever they might be, walking down 
the street. This is the future of this country.
    Our country is not going to stay great just because we want 
if to, it's going to stay great because we are willing to make 
sacrifices, speak out, educate our children. Education is what 
it's all about.
    So I would hope you would go forth from this congressional 
hearing more enthused and determined so that people who want 
these programs to be part of our system, and that Carlos Garcia 
has some tools, some revenues, some resources, to help these 
kids that he's responsible for taking care of.

                         CONCLUSION OF HEARING

    Thank you all very much for being here, that concludes our 
hearing.
    [Whereupon, at 11:52 a.m., Friday, April 5, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
